U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tina Neville v. Janet Dhillon, Chair, Equal Employment Opportunity
Commission, et al., No. 19-690
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 27,
2019. The government’s response is now due, after one extension, on January 29, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 28, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0690
NEVILLE, TINA
JANET DHILLON, CHAIR, EEOC, ET AL.

MICHAEL D.J. EISENBERG
LAW OFFICE OF MICHAEL D.J. EISENBERG
700 12TH STREET, N.W.
SUITE 700
WASHINGTON, DC 20005
202-558-6371
MICHAEL@EISENBERG-LAWOFFICE.COM

